Horn v. Wal-Mart Stores, Inc.
Supreme Court of the United States
Case No. 20-7645
CERTIFICATE OF SERVICE

1

I hereby certify that on April 28, 2021 I served the foregoing WAIVER on:

2
3

Pro Per

JOSHUA HORN
P.O. BOX 1388
PENN VALLEY, CA 95946

4
5

Via Certified Mail:
70121640000220199747

6
7
8
9

☐

by electronic means through the Court’s Case Management/Electronic Case File
system, which will send automatic notification of filing to each person listed above.

☒

by mailing a true and correct copy to the last known address of each person listed
above. It was contained in a sealed envelope, with postage paid, addressed as stated
above, and deposited with the U.S. Postal Service in Sacramento, California.

☐

by causing a true and correct copy to be hand-delivered to the last known address of
each person listed above. It was contained in a sealed envelope and addressed as stated
above.

☐

by causing a true and correct copy to be delivered via overnight courier to the last
known address of each person listed above. It was contained in a sealed envelope, with
courier fees paid, and addressed as stated above.

☐

by e-mailing a true and correct copy to the last known email address of each person
listed above.

10
11
12
13
14
15
16
17
18
19
20

By:

21

MARIA DAVIS

22
23
24
25
26
CERTIFICATE OF SERVICE - 1

Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
500 Capitol Mall, Suite 2500, Sacramento, CA 95814
Phone: 916-840-3150 | Fax: 916-840-3159

